No.

IN THE
SUPREME COURT OF THE UNITED STATES

EARL MCBRIDE JR., - PETITIONER
VS.
LORIE DAVIS, DIR. - RESPONDENT

ON PETITION FOR WRIT OF CEERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Earl McBride Jr.,
Petitioner Pro se
TDCJ-ID #00315371 Ramsey Unit
1100 FM 655, Rosharon, Texas 77583

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 16-20626
Summary Calendar

FILED
May 14, 2018
Lyle W. Cayce
Clerk

EARL MCBRIDE, JR.
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,

CRIMINAL

Respondent-Appellee.

Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CV-2012

Before JOLLY, OWEN, and HAYNES, Circuit Judges.
PER CURIAM:*
Petitioner Earl McBride, Jr., Texas inmate # 315371, was convicted of
capital murder in 1980 and sentenced to a life term of imprisonment. In 2016,
McBride filed a 28 U.S.C. § 2254 petition asserting constitutional claims based
on his factual allegation that he had been paroled in 2014 but his parole was
improperly revoked before he was released. He specifically denied that he was

Pursuant to 5TH ClR. R. 4 / .5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

:>

No. 16-20626
challenging any discretionary decision to grant or deny him parole. Without
ordering a response and without the benefit of any state court records, the
district court dismissed McBride’s claims as a meritless challenge to a denial
of parole. This court granted a certificate of appealability as to “whether the
district court correctly dismissed [McBride’s] constitutional claims as
predicated on a denial, rather than a revocation, of parole.”
Denial of parole and revocation of parole are subject to different
constitutional standards. See Morrissey u. Brewer, 408 U.S. 471, 482-84 (1972);
Jennings v. Owens, 602 F.3d 652, 657 (5th Cir. 2010); Orellana v. Kyle, 65 F.3d
29, 32 (5th Cir. 1995). The district court did not analyze McBride’s claims
under the standard applicable to revocation of parole and the limited record
does not conclusively establish McBride’s parole status. Merits briefing has
not clarified matters.

Accordingly, we conclude that the district court

misconstrued the basis of McBride’s constitutional claims and prematurely
dismissed his § 2254 petition. See Kiser v. Johnson, 163 F.3d 326, 328 (5th Cir.
1999). We therefore vacate the judgment and remand for further proceedings
consistent with this opinion. McBride’s motion for appointment of counsel,
construed as a motion for reconsideration of the denial of the original motion
to appoint counsel, is denied without prejudice to reurging the motion on
remand.
JUDGMENT

VACATED

AND

REMANDED;

MOTION

APPOINTMENT OF COUNSEL DENIED WITHOUT PREJUDICE.

2

FOR

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20718

EARL MCBRIDE, JR.,
Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
Appeals from the United States District Court
for the Southern District of Texas
ORDER:
Petitioner Earl McBride, Jr., Texas inmate # 315371, was convicted by a
jury of capital murder and sentenced to a life term of imprisonment. In 2016,
McBride filed a 28 U.S.C. § 2254 petition asserting constitutional claims
predicated on what he alleged was a revocation of parole. Following a previous
appeal and remand, see McBride v. Davis, 722 F. App’x 366, 367 (5th Cir. 2018),
the district court dismissed the petition as time barred. McBride now moves
for a certificate of appealability (COA) to appeal that decision.
To obtain a COA, McBride must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Where, as here, the
district court’s denial of federal habeas relief is based on procedural grounds,
this court will issue a COA “when the prisoner shows, at least, that jurists of

reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000). Both showings are required. See
id. at 484-85; Houser u. Dretke, 395 F.3d 560, 562 (5th Cir. 2004).
In light of the record developed on remand, McBride fails to make the
requisite showing of a valid claim of the denial of a constitutional right based
on the revocation, rather than denial, of parole. See Slack, 529 U.S. at 48485; Houser, 395 F.3d at 562; Teague v. Quarterman, 482 F.3d 769, 774 (5th Cir.
2007). Accordingly, his motion for a COA is DENIED.

A True Copy
Certified order issued Jul 07, 2020

vjwlt Ui. OtMjLlL
Clerk, U.S. Court of fibppeals, Fifth Circuit

ANDREW S. OLDHAM
UNITED STATES CIRCUIT JUDGE

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

EARL MCBRIDE JR., -PETITIONER
VS.
LORIE DAVIS, DIR, - RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

EARL MCBRIDE JR,
PETITIONER PROSE
TDCI-ID #00315371 RAMSEY UNIT
1100 FM 655 , ROSHARON, TEXAS 77583

APPENDIX B

FEDERAL ROLES OF CIVIL PROCEDURE
RULE 56 Summary Judgment
(a) Motion for Summary judgment or Partial Summary Judgment.
A party may move for summary judgment,

identifying each claim or

defense---- or the part of each claim or defense---- on which sum­
mary judgment is sought. The court shall grant summary judgment
if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter
of law.

The court should state on the record the reasons for

granting or denying the motion.
(b)

Time to File a Motion. Unless a different time is set

by local rule or the court orders otherwise, a party may file a
motion for summary judgment at any time until 30 days after the
close of all discovery.
(c) Procedures.
(1) Supporting"-Factual Positions.

A party.asserting

that a fact cannot be or is genuinely disputed must support the
assertion by;
(A) citing to particular parts of materials in the record,
including depositions, documents, electtronically stored infor­
mation, affidavits or declarations, stipulations (including those
made for purposes of the motion only), admissions,

interrogatory

answers, or other materials; or
(B)

showing that the materials cited do rio„t establish the

absence or presence of a genuine dispute, or that an adverse

56.1

party cannot produce admissible evidence to support the fact.
(2) Objection That a Fact Is Not Supported by Admissible
Evidence. A party may object that the material cited to
support or dispute a fact cannot be presented in a form that
could be admissible in evidence.
(3) Materials Not Cited.

The court need consider only the

cited materials, but it may consider other materials in the
record.
(4) Affidavits or Declarations.

An affidavit or declara- ,

tion used to support or oppose a motion must be made on personal
knowledge, set out facts that would be admissible in evidence,
and show that the affiant or declarant is competent to testify on
the matters stated.
(d) When Facts Are Unavailable to the Nonmovant.

If a non­

movant shows by affidavit or declaration that, for specified
reasons, it cannot present facts essential to justify its .
opposition, the court may;
(1) defer considering the motion or deny it;
(2) allow time to obtain affidavits or declarations or to
take discovery; or
(3) issue any other appropriate order.
(e) Failing to Properly Support or Address a Fact. If a
party fails to properly support an assertion of fact or fails to
properly address another party's assertion of fact as required by
Rule 56(c), the court may;
(1) give an opportunity to properly support or address the
f act;

56.2

(2) consider the fact undisputed for purposes of the motion;
(3) grant summary judgment if the motion and supporting
materials— including the £a££8-'cionsjider ed~*tmdispu.ted— show that
the movant is entitled to it; or
(4) issue any other appropriate order.
(f) Judgment Independent of the Motion After giving notice
and a reasonable time to respond/ the court may;
(1) grant summary judgment for a nonmovant;
(2) grant the motion on grounds not raised by a party; or
(3) consider summary judgment on its own after identifying
for the parties materials facts that may not be genuinely in
dispute.
(g) Failing to Grant All the Requested Relief. If the court
does not grant all the relief requested by the motion/

it may

enter an order stating any material fact — including an item of
damages or other relief

that is not genuinely in dispute and

treating the fact as established in the case.
(h) Affidavit or Declaration Submitted in Bad Faith. If
satisfied that an affidavit or declaration,under this rule.is
submitted in bad faith or solely for delay/ the court —after
notice and reasonable time to respond— may order the submitting
party to pay the other party the reasonable expenses/

including

attorney fees/it incurred as a result. An offending party or
attorney may also be held in contempt or subject to other appro­
priate sanctions.

56.3

